         U.S. ENVIRONMENTAL PROTECTION AGENCY
         OFFICE OF INSPECTOR GENERAL



                                        Catalyst for Improving the Environment


Evaluation Report




       Oversight of North Carolina’s
       Renewals of Thermal Variances
       Report No. 11-P-0221 


       May 9, 2011 

Report Contributors:                               Dan Engelberg
                                                   Jayne Lilienfeld-Jones
                                                   Tim Roach
                                                   Gerry Snyder




Abbreviations

BIP           Balanced, indigenous population
CFR           Code of Federal Regulations
CWA           Clean Water Act
DWQ           Division of Water Quality
EPA           U.S. Environmental Protection Agency
MOA           Memorandum of agreement
NPDES         National Pollutant Discharge Elimination System
OIG           Office of Inspector General
OWM           Office of Wastewater Management




  Hotline
  To report fraud, waste, or abuse, contact us through one of the following methods:

  e-mail:    OIG_Hotline@epa.gov                      write:    EPA Inspector General Hotline
  phone:     1-888-546-8740                                     1200 Pennsylvania Avenue NW
  fax:       703-347-8330                                       Mailcode 8431P (Room N-4330)
  online:    http://www.epa.gov/oig/hotline.htm                 Washington, DC 20460
                        U.S. Environmental Protection Agency 	                                             11-P-0221
                                                                                                          May 9, 2011
                        Office of Inspector General


                        At a Glance
                                                                            Catalyst for Improving the Environment

Why We Did This Review              Oversight of North Carolina’s Renewals of
The Office of Inspector             Thermal Variances
General received a Hotline
complaint alleging that the
                                    What We Found
State of North Carolina’s
National Pollutant Discharge
                                    Region 4 has not adequately implemented management controls contained in its
Elimination System (NPDES)
                                    memorandum of agreement with North Carolina. Properly implemented controls
permits do not protect waters
                                    would assure EPA that NPDES permits would comply with the CWA and
from harmful environmental
                                    applicable federal regulations. In four of the six draft permits we reviewed,
effects caused by thermal
                                    Region 4 did not agree with the North Carolina Division of Water Quality that
discharges. We evaluated North
                                    there was sufficient information to support the draft permit limits for
Carolina’s and Region 4’s
                                    temperature. Region 4 requested that the state add conditions to the final permits
compliance with Clean Water
                                    so that information could be collected to determine whether the thermal limits
Act (CWA) requirements for
                                    harm aquatic life. The two other draft permits we reviewed either did not
protecting surface waters from
                                    contain a thermal variance request, or the region never commented on the
thermal discharges.
                                    thermal variance. We also found that the state limited the public’s opportunity to
Background                          review information and comment on these variances by not following regulatory
                                    requirements for developing complete permit fact sheets and public notices.
Power and industrial facilities
draw water from rivers and
                                    Due to procedural lapses by the North Carolina Division of Water Quality and
lakes to cool equipment and
                                    Region 4, it cannot be determined whether waters are protected from harmful
then discharge those cooling
                                    environmental effects caused by thermal discharges. The state and Region 4 will
waters at a higher temperature
                                    not make further determinations on the thermal variances until these facilities
back into those waterbodies.
                                    request NPDES permit renewals. As a result, until 2015, these facilities will
Either a state or the U.S.
                                    continue discharging heated waters as allowed under their current permits and
Environmental Protection
                                    thermal variances.
Agency (EPA) may issue a
variance under CWA Section
                                    What We Recommend
316(a) to allow facilities to
discharge cooling waters at an
                                    We recommend that the EPA Regional Administrator, Region 4, enforce the
alternative thermal effluent
                                    management controls of the NPDES memorandum of agreement; verify that
limit that is still protective of
                                    thermal variances are protective of a balanced, indigenous population; and
aquatic life.
                                    verify that permit fact sheets and public notices comply with federal regulations.
                                    The region agreed with our recommendations. We agree that their actions meet
For further information,            the intent of the recommendations.
contact our Office of
Congressional, Public Affairs
and Management at
(202) 566-2391.

The full report is at:
www.epa.gov/oig/reports/2011/
20110509-11-P-0221.pdf
                      UNITED STATES ENVIRONMENTAL PROTECTION AGENCY
                                   WASHINGTON, D.C. 20460


                                                                            THE INSPECTOR GENERAL




                                           May 9, 2011

MEMORANDUM

SUBJECT:	 Oversight of North Carolina’s Renewals of Thermal Variances
          Report No. 11-P-0221


FROM:          Arthur A. Elkins, Jr.
               Inspector General

TO:	           Gwendolyn Keyes Fleming
               Regional Administrator, Region 4


This is our report on the subject evaluation conducted by the Office of Inspector General (OIG)
of the U.S. Environmental Protection Agency (EPA). This report contains findings that describe
the problems the OIG has identified and corrective actions the OIG recommends. This report
represents the opinion of the OIG and does not necessarily represent the final EPA position.
Final determinations on matters in this report will be made by EPA managers in accordance with
established audit resolution procedures.

The estimated direct labor and travel costs for this report are $245,398.

Action Required

In accordance with EPA Manual 2750, you are required to provide a written response to this
report within 90 calendar days. You should include a corrective actions plan for agreed-upon
actions, including milestone dates. Your response will be posted on the OIG’s public website,
along with our memorandum commenting on your response. Your response should be provided
as an Adobe PDF file that complies with the accessibility requirements of Section 508 of the
Rehabilitation Act of 1973, as amended. The final response should not contain data that you do
not want to be released to the public; if your response contains such data, you should identify the
data for redaction or removal. We have no objections to the further release of this report to the
public. We will post this report to our website at http://www.epa.gov/oig.

If you or your staff have any questions regarding this report, please contact Wade Najjum at
202-566-0832 or najjum.wade@epa.gov, or Dan Engelberg at 202-566-0830 or
engelberg.dan@epa.gov.
Oversight of North Carolina’s Renewals of                                                                                     11-P-0221
Thermal Variances




                                      Table of Contents 

   Purpose........................................................................................................................        1


   Background .................................................................................................................           1


           Clean Water Act Section 316(a) Variances ..........................................................                            1

           North Carolina’s and EPA’s Responsibilities for Implementing 

                CWA 316(a) Thermal Variances.........................................................................                     1


   Scope and Methodology.............................................................................................                     3


   Results of Review .......................................................................................................              3


           Variance Renewals Lack Adequate Support........................................................                                4

           Permit Fact Sheets Were Missing Critical Information .........................................                                 5

           Public Notices Were Missing Required Elements ................................................                                 6


   Conclusion...................................................................................................................          7


   Recommendations ......................................................................................................                 7


   Agency Response and OIG Comment ......................................................................                                 7


   Status of Recommendations and Potential Monetary Benefits..............................                                                8




Appendices
   A       List of Reviewed Permits...................................................................................                    9


   B       Agency Comments.............................................................................................               10


   C       Distribution .........................................................................................................     12

Purpose
            In August 2010, the Office of Inspector General received a Hotline complaint
            alleging that the State of North Carolina’s National Pollutant Discharge
            Elimination System (NPDES) permits do not protect waters from harmful
            environmental effects caused by thermal discharges into lakes. The U.S.
            Environmental Protection Agency (EPA), Office of Inspector General, evaluated
            North Carolina’s and Region 4’s compliance with Clean Water Act (CWA)
            requirements for protecting surface waters from thermal discharges at selected
            facilities.

Background
            Clean Water Act Section 316(a) Variances

            Power and industrial facilities draw water from lakes and rivers to cool equipment.
            These cooling waters, known as thermal effluents after they are heated, are
            discharged from point sources (such as pipes) back into those waterbodies. Thermal
            effluents are regulated because heat is identified as a pollutant under 40 Code of
            Federal Regulations (CFR) §122.2. A facility may be authorized to discharge
            pollutants into waters of the United States by obtaining an NPDES permit.

            A permitting authority (either a state or EPA) issues NPDES permits, which may
            contain a variance to a thermal effluent limit under 40 CFR, subpart H. This
            variance allows facilities to discharge cooling waters at an alternative thermal
            effluent limit that is still protective of aquatic life. To obtain a CWA 316(a)
            thermal variance, the operator of a facility must demonstrate to the permitting
            authority that an alternative thermal discharge limit will be protective of the
            indigenous aquatic community. This demonstration can be a detailed study from
            the permitted facility with supporting data showing that the alternate effluent
            limitation assures the “protection and propagation of a balanced, indigenous
            community of shellfish, fish, and wildlife” as defined in 40 CFR §125.71(c). This
            alternative effluent limit, or variance, is only in effect for the duration of the
            current permit. To obtain a CWA 316(a) thermal variance, a facility must include
            a request for the variance as part of the permit application. The applicant’s request
            to continue a thermal variance must also include a demonstration that the
            alternative effluent limit continues to assure the protection and propagation of the
            balanced, indigenous population (BIP).

            North Carolina’s and EPA’s Responsibilities for Implementing
            CWA 316(a) Thermal Variances

            In 1975, EPA granted the State of North Carolina authority to issue NPDES
            permits. In 1983, both parties signed a memorandum of agreement (MOA)
            establishing policies, responsibilities, and procedures for administering the
            NPDES program. Today, the North Carolina Department of Environment and


11-P-0221                                                                                    1
            Natural Resources, Division of Water Quality (DWQ), is responsible for surface
            water and ground water protection in the state. DWQ’s Environmental Services
            Section and the Surface Water Protection Section, NPDES Permit Unit, share in
            the review of NPDES permit applications and renewals.

            In North Carolina, the process for requesting an NPDES permit with a thermal
            variance begins with the submission of a facility’s signed application to DWQ.
            For permit requests that include a CWA 316(a) thermal variance, the
            Environmental Services Section described its internal review process. The staff
            members review BIP reports for biological and physical/chemical data provided
            by the facility. The Environmental Services Section then submits its
            determination as to whether there is a BIP to the Permitting Unit, which prepares
            a draft NPDES permit. The Permitting Unit makes the final determination about a
            permittee’s request for continuance of a CWA 316(a) variance. The NPDES
            Permit Unit makes the draft permit available for public review and comment
            through a public notice. EPA Region 4 should also receive a copy of the draft
            permit and any additional information requested for its review.

            In 2007, the State of North Carolina and EPA Region 4 updated their MOA.
            According to the 2007 MOA, Region 4 will oversee the state’s NPDES program
            for consistency with the CWA, state legal authorities, the MOA, the state’s CWA
            Section 106 workplan, and all applicable federal regulations. Under the 2007
            MOA, the region may provide comments, recommendations, or objections to a
            draft NPDES permit. Under 40 CFR §123.44(c)(5), the Regional Administrator
            may object to a draft permit if the Regional Administrator determines that
            provisions of the permit relating to the maintenance of records, reporting,
            monitoring, sampling, or the provision of any other information by the permittee,
            are inadequate to assure compliance with permit conditions. The period of review
            may be up to 90 days from receipt of the proposed permit. If the region chooses to
            object to the draft permit and the state fails to make the changes detailed in the
            objection, the region assumes authority for issuing the NPDES permit under the
            MOA.

            Under the MOA, DWQ sends a copy of the draft permit package to EPA
            Region 4. This package includes a copy of the public notice, the draft permit, the
            application, the fact sheet or statement of basis associated with the permit, and
            notices of public hearings. According to 40 CFR §124.8, the fact sheet shall
            contain, when applicable, a brief summary of the basis for the draft permit
            conditions. The September 2010 Permit Writers’ Manual suggests that the fact
            sheet should include detailed discussions of the development of the permit
            limitations for each pollutant. It must also contain, when applicable, a justification
            for continuing a thermal variance. Under 40 CFR §124.8(a), DWQ must send the
            fact sheet to the permit applicant and to any others requesting a copy.

            To assess the quality of NPDES permits, the EPA Office of Water, Office of
            Wastewater Management (OWM), began conducting permit quality reviews in



11-P-0221                                                                                     2
            2007. OWM shared its findings for reviews conducted in Regions 4, 7, and 9.
            According to OWM, the permit files containing CWA 316(a) thermal variances
            generally did not contain documentation supporting the variances.

            To remind states and regions about responsibilities concerning CWA 316(a)
            variances, OWM issued a 2008 memorandum clarifying the requirements for
            issuing or renewing a CWA 316(a) thermal variance. The memorandum states, “It
            is essential that permitting authorities require applicants to provide as much
            information described in 40 CFR §125.72(a) and (b) as necessary to demonstrate
            the alternative effluent limit assures the protection and propagation of the BIP.” In
            addition to this memorandum, Region 4 sent comment letters about draft permits
            to DWQ. These letters requested that the final permits contain a condition that
            permittees perform additional studies to determine whether the thermal variances
            allow for a BIP. The final permits contained requests for permittees to conduct
            additional studies.

Scope and Methodology
            We reviewed permit application materials for seven facilities (appendix A). We
            restricted our analysis to DWQ’s compliance with requirements for permits with a
            CWA 316(a) thermal variance, and Region 4’s review of these draft permits. We
            discussed with OWM, Region 4, and the North Carolina Department of
            Environment and Natural Resources the requirements to support a CWA 316(a)
            variance renewal. We also obtained and reviewed the public law, federal
            regulations, and Agency guidance pertaining to CWA 316(a) variances in NPDES
            permit renewals.
            We conducted our review from November 2010 to March 2011 in accordance
            with generally accepted government auditing standards. Those standards require
            that we plan and perform our review to obtain sufficient, appropriate evidence to
            provide a reasonable basis for our findings and conclusions based on our
            objectives. We believe that the evidence obtained provides a reasonable basis for
            our findings and conclusions based on our objectives.

Results of Review
            Region 4 has not adequately implemented management controls contained in its
            MOA with North Carolina. Properly implemented controls would assure EPA that
            NPDES permits comply with the CWA and applicable federal regulations. In four
            of the six draft permits we reviewed, Region 4 did not agree with DWQ that there
            was sufficient information to support the draft permit limits for temperature. This
            information was needed so that Region 4 could determine whether proposed
            thermal variances would harm aquatic life. Region 4 requested that the state add
            conditions to the final permits so that information could be collected to determine
            whether the thermal limits harm aquatic life. According to the documents we
            obtained from DWQ, these facilities have been operating with a CWA 316(a)



11-P-0221                                                                                    3
            thermal variance or collecting water temperature data since the mid-1970s
            through the early 1990s. Two other draft permits we reviewed either did not
            contain a thermal variance request or the region never commented on the thermal
            variance. As of January 2011, DWQ reported that the draft permit had not yet
            been developed for one other facility in our sample. We also found that the state
            limited the public’s opportunity to review information and comment on these
            variances by not following regulatory requirements for developing complete
            permit fact sheets and public notices.

            Due to procedural lapses by North Carolina and Region 4, it cannot be determined
            whether waters are protected from harmful environmental effects caused by
            thermal discharges. The state and Region 4 will not make further determinations
            on the thermal variances until these facilities request NPDES permit renewals.
            Region 4 and the public will not be able to assess whether these discharges are
            harming the BIP of the waterbodies until the permits expire in 2015.

            Variance Renewals Lack Adequate Support

            In four of the six draft permits we reviewed, Region 4 did not find sufficient
            support to agree with DWQ’s decision to continue the CWA 316(a) thermal
            variances. To continue a thermal variance, federal regulations allow a permit
            applicant to demonstrate that a BIP does not exhibit any appreciable harm from
            the prior normal operating discharges. For three of these permits, Region 4 sent
            comment letters to DWQ. The region objected to the fourth because it did not
            have sufficient support for the thermal variance. In followup correspondence,
            Region 4 determined that that DWQ satisfied the conditions of the objections.
            During 2010, Region 4 reviewed the draft permits for three facilities and, in each
            case, provided comments to DWQ regarding support for approving the
            permittee’s request to continue with the thermal variance. For each of these draft
            permits, Region 4 stated in its comments that the “report lacks detail and did not
            generate information sufficient to support a Section 316(a) variance determination
            for the next permit cycle.” For these three permits, the region developed a list of
            items to address in the future study plan for the next permit cycle.

            In response to the region’s comments, DWQ inserted a condition into the renewed
            permits requiring facilities to provide their study plans to Region 4. These permits
            do not expire until 2015.
            Region 4 objected to one draft permit because it was concerned with the allowed
            monthly average temperature difference of 13.9 degrees Celsius as compared with
            the receiving waters. DWQ adjusted the permit limit to allow a temperature
            change of 8.5 degrees Celsius, resolving Region 4’s concerns. DWQ issued the
            modified permit on May 26, 2010.

            Region 4 also reviewed draft permits for two of the three other facilities in our
            sample. In one case, the region did not comment on the thermal variance in the


11-P-0221                                                                                   4
            draft permit. In another one, Region 4 has not yet reviewed the draft permit
            because the state is currently developing it. In the final draft permit we reviewed,
            there is no thermal variance. DWQ told us the receiving water is classified as a
            cooling pond and is not considered a “water of the State”; therefore, the facility
            can discharge at a higher temperature. The permit states that in no case should the
            ambient temperature exceed 32 degrees Celsius as a result of operations. One of
            the two water-sampling locations in the permit is at the discharge point from the
            dam, which we estimate to be approximately 2 miles downstream from the
            facility.

            We discussed this distance with the Region 4 permit reviewer and were told that
            the dam discharge sampling point may not be appropriate, and that this matter will
            be discussed with the state during the next permit renewal. The permit reviewer
            agreed that without a variance, the discharge must meet the water quality
            standards at all points in the lake.

            In the four draft permits we reviewed that contain a thermal variance, Region 4
            concluded that there were insufficient data to support the state’s determination
            that thermal variances will result in no appreciable harm to the waterbodies’ BIP.
            These were all permit renewals rather than new permits; therefore, Region 4 had
            previous opportunities to request that more data be collected to determine the
            effects of these variances. Had the region more closely monitored these draft
            permits as required under the current and previous MOAs, it would be in a
            position to determine whether renewing the thermal variances was appropriate.
            Without this support, we cannot determine whether these waterbodies are
            protected from harmful environmental effects caused by thermal discharges at the
            facilities we reviewed.

            Permit Fact Sheets Were Missing Critical Information

            Most of the draft permits we reviewed were missing critical information needed to
            allow EPA and the public an opportunity for review and comment as required by
            federal regulations. Five fact sheets we reviewed contained insufficient
            information to explain the basis for approving the thermal variance and the
            associated permit limits. As of January 2011, a DWQ permit writer reported that
            one permit is under review and the state has not developed the fact sheet. The
            other draft permit we reviewed did not contain a CWA 316(a) thermal variance,
            so reference to it in the fact sheet was not necessary. Without a complete
            summary of the state’s CWA 316(a) variance decision in the fact sheet, neither
            EPA nor the public has the needed information to understand the state’s rationale
            for approving these thermal variances.

            According to 40 CFR §124.8, every draft NPDES permit that incorporates a
            variance must include a fact sheet. The fact sheet establishes the principal facts
            and the significant factual, legal, methodological, and policy questions considered
            in preparing the draft permit, as well as the basis for the permit limits, including



11-P-0221                                                                                   5
            references to applicable statutory or regulatory provisions. A fact sheet provides a
            critical internal control mechanism because it is a source of information that
            explains a state’s decision to both the region and the public. OWM’s 2008
            memorandum reiterated the importance of facts sheets. The memorandum stated
            that not only is a fact sheet required as part of an NPDES permit containing a
            CWA 316(a) thermal variance, but it must explain why the permitting authority
            believes the variance is justified. The fact sheet should also explain the thermal
            variance history (if it is a renewal) as well as the basis for continuing the variance.

            For the five fact sheets with insufficient information, details about CWA 316(a)
            thermal variances ranged from general information to no information whatsoever.
            In compliance with 40 CFR §124.8(b)(5), DWQ stated why the variance appears
            justified in four of the five fact sheets. DWQ concluded that the waterbody
            receiving thermal waters has a balanced indigenous macroinvertebrate and fish
            community. One fact sheet did not contain this statement. These five fact sheets
            also did not contain a brief summary of the basis for the permit conditions (i.e.,
            thermal variances), as required by 40 CFR §124.8(b)(4). Region 4 did not
            comment on the contents of these fact sheets when it reviewed the draft NPDES
            permit packages sent by DWQ. Without complete information in fact sheets, the
            public may not fully know the permit conditions pertaining to the CWA 316(a)
            thermal variance.

            Public Notices Were Missing Required Elements

            The public notices for five of six draft permits did not contain the required
            statements describing the proposed thermal variance. Because one facility does
            not have a thermal variance, the public notice did not need information about
            thermal variances. A final permit request was not under review by DWQ, and a
            public notice had not been issued. Statements about thermal variances alert the
            reader that one is being proposed for the facility. It provides a comparison of the
            water-quality-based limit and the less-stringent proposed limit allowed under the
            variance. The regulations require that a public notice for a draft permit with a
            thermal variance contain statements that address the following:

                   1. 	 The thermal component of the discharge is subject to effluent
                        limitations under CWA Section 301 or 306 and a brief description,
                        including a quantitative statement, of the thermal effluent limitations
                        proposed under Section 301 or 306.

                   2. 	 A Section 316(a) request has been filed and that alternative, less-
                        stringent effluent limitations may be imposed on the thermal
                        component of the discharge under Section 316(a), and a brief
                        description, including a quantitative statement, of the alternative
                        effluent limitations, if any, included in the request.

            According to the regional staff person who reviews the state’s draft permits, the
            public notice should discuss the thermal variance. The permit reviewer said the


11-P-0221                                                                                      6
            state may not send a copy of the public notice with the draft permit, but it is
            sometimes attached to the fact sheet. She was not aware that the public notices we
            reviewed did not meet the regulatory requirements. Failing to include this
            information in the public notice significantly reduces the public’s awareness of
            the state’s decision to allow a thermal variance in the permit.

Conclusion
            We cannot determine whether North Carolina’s approval of permits with CWA
            316(a) thermal variances protects aquatic populations. The region determined that
            the thermal limits for four of the six facilities we reviewed were renewed based on
            insufficient documentation of proposed thermal variances. The process for issuing
            six of the seven facilities’ permits did not follow important process safeguards.
            North Carolina and Region 4 have not followed a number of requirements
            contained in federal regulations, leading to incomplete documentation of the
            state’s decision to approve these variances. After Region 4 determined that North
            Carolina had not gathered the information needed to determine whether variances
            were warranted, it developed a list of items to address in future study plans for the
            next permit cycle. In our opinion, the region should have noted the deficiencies in
            North Carolina’s fact sheets and public notices in previous permit renewal
            packages. Incomplete fact sheets and public notices limit the public’s ability to
            make informed judgments about, comment on, or dispute these decisions by
            North Carolina. These facilities will continue discharging heated waters as
            allowed under their current permits and thermal variances for the next 4 years.
            Consequently, Region 4 and the public will not know whether these discharges
            are harming the BIP of the waterbodies until the permits come up again for
            renewal.

Recommendations
            We recommend that the Regional Administrator, Region 4:

                   1.	 Enforce the management controls of the NPDES MOA.

                   2.	 Verify that thermal variances are protective of a balanced, indigenous
                       population.

                   3.	 Verify that permit fact sheets and public notices comply with federal
                       regulations.

Agency Response and OIG Comment

            The region agreed with our recommendations. We agree that their actions meet
            the intent of the recommendations.




11-P-0221                                                                                    7
                                 Status of Recommendations and
                                   Potential Monetary Benefits

                                                                                                                         POTENTIAL MONETARY
                                                    RECOMMENDATIONS                                                       BENEFITS (in $000s)

                                                                                                             Planned
    Rec.    Page                                                                                            Completion   Claimed    Agreed-To
    No.      No.                          Subject                       Status1      Action Official           Date      Amount      Amount

     1        7     Enforce the management controls of the NPDES            O     Regional Administrator,
                    MOA.                                                                Region 4

     2        7     Verify that thermal variances are protective of a       O     Regional Administrator,
                    balanced, indigenous population.                                    Region 4

     3        7     Verify that permit fact sheets and public notices       O     Regional Administrator,
                    comply with federal regulations.                                    Region 4




1    O = recommendation is open with agreed-to corrective actions pending
     C = recommendation is closed with all agreed-to actions completed
     U = recommendation is undecided with resolution efforts in progress




11-P-0221                                                                                                                                8
                                                                       Appendix A

                          List of Reviewed Permits

Facility permit documentation reviewed as part of Hotline complaint:

   1. Asheville Coal Power Plant (NC0000396)
   2. Belews Creek Steam Station (NC0024406)
   3. Blue Ridge Paper Products Canton Mill (NC0000272)
   4. Buck Steam Station (NC0004774)
   5. Cliffside Steam Station (NC0005088)
   6. Marshall Steam Station (NC0004987)
   7. McGuire Nuclear Power Plant (NC0024392)




11-P-0221                                                                     9
                                                                                    Appendix B

                               Agency Comments

MEMORANDUM

SUBJECT:	 Draft Report:
          Oversight of North Carolina’s Renewals of Thermal Variances
          OIG Project No. 2011-0003

FROM: 	       Gwendolyn Keyes Fleming
              Regional Administrator

TO:    	      Wade Najjum
              Assistant Inspector General for Program Evaluation

       This is in response to your memorandum to me dated April 5, 2011, regarding an Office
of Inspector General (OIG) draft report on several final National Pollutant Discharge Elimination
System (NPDES) permits issued by the North Carolina Department of Natural Resources
(NCDNR). The permits contain provisions for thermal variances to comply with requirements of
Section 316(a) of the Clean Water Act (CWA).

Below are recommendations in the draft report with our responses:

   1.	 OIG Recommendation: Enforce the management controls of the NPDES Memorandum
       of Agreement.

   EPA Response: We concur. Section IV.B.3. of EPA Region 4’s Memorandum of Agreement
   (MOA) with NCDNR states, “EPA may provide to the State written comments on,
   recommendations with respect to, or objections to the issuance of the draft permit.”
   Regional review of a particular draft NPDES permit, or type of permit, is a discretionary
   oversight activity. It is also within the Region’s discretion to object, comment, or choose not
   to comment to a draft NPDES permit. Based on information available at the time we
   reviewed the draft permits, we implemented the MOA by providing comments on and
   recommendations with respect to proposed 316(a) thermal variances. We recommended that
   during the next permit term facilities should collect targeted data that would assist the State
   in determining if the thermal component of the effluents was allowing maintenance of a
   balanced and indigenous population (BIP) of fish, shellfish and wildlife in the receiving
   water body near the discharge point. This data will be more detailed than the data previously
   used by the State in its determination of compliance with CWA Section 316(a).




11-P-0221                                                                                     10
   2.	 OIG Recommendation: Verify that thermal variances are protective of a balanced,
       indigenous population.

   EPA Response: We concur. By the end of each permit’s term, as directed by EPA in our
   comment letters on the draft permits, the State will have specific data to determine if the
   receiving water body is able to maintain a BIP. EPA will review the data and verify that the
   thermal variances are protective of a balanced and indigenous population.

   3.	 Verify that permit fact sheets and public notices comply with federal regulations.

   EPA Response: We concur. In accordance with the MOA, EPA may review draft permits, or
   in the limited circumstances described in Section IV.B.6., proposed permits. In the future,
   EPA will review draft permits with CWA 316(a) variances to ensure that the permit fact
   sheets and public notices contain the necessary elements and language to adequately inform
   the public of thermal discharges in relationship demonstrating the maintenance of a BIP.

       Thank you for the opportunity to comment on this draft report. Please contact Jim
Giattina, Director of the Water Protection Division at Giattina.Jim@epa.gov or at
(404) 562-9345, if you have any questions about our response.




11-P-0221                                                                                   11
                                                                            Appendix C

                                    Distribution
Office of the Administrator
Regional Administrator, Region 4
Assistant Administrator for Water
Agency Followup Official (the CFO)
Agency Followup Coordinator
General Counsel
Associate Administrator for Congressional and Intergovernmental Relations
Associate Administrator for External Affairs and Environmental Education
Director, Office of Regional Operations
Audit Followup Coordinator, Region 4
Director, Water Protection Division, Region 4




11-P-0221                                                                          12
